NOT FOR OFFICIAL PUBLICATION
IN THE COURT OF CIVIL APPEALS OF THE STATE OF OKLAHOMA
DIVISION n

:

JUDY KNIGHT, an individual, and
PHOENIX CENTRAL, INC., an
Oklahoma corporation,
Plaintiffs/Appellants,

)
)

MAY -'9 2019

)
)

JOHN D. HADDEN
CLERK

)
)

vs.

)

WARD & GLASS, P.C., an Oklahoma
professional corporation, and
STANLEY WARD,
Defendants/Appellees,

FILED
COURT OF CIVIL APPEALS
STATE OF OKLAHOMA

Case No. 117,492

)
)
)
)
)
)
)
)
)

and

JOHN or JANE DOES 1-10, individuals )
or corporations,
)
Defendants.

)
)

APPEAL FROM THE DISTRICT COURT OF
CLEVELAND COUNTY, OKLAHOMA
HONORABLE AARON DUCK, TRIAL JUDGE
AFFIRMED
Judy Knight
Norman, Oklahoma

Pro se

Charles F. Alden, III
Oklahoma City, Oklahoma

For Defendants/Appellees

OPINION BY JERRY L. GOODMAN, JUDGE:
i

Judy Knight (Client) appeals the trial court’s January 4,2019, order denying
her motion to vacate an earlier order granting summary judgment in favor of
defendants Ward & Glass, P.C., and Stanley Ward (collectively, Attorneys), on
Client’s claim of professional negligence.
The appeal was assigned to the accelerated docket pursuant to Oklahoma
Supreme Court Rule 1.36(a)(1), 12 O.S.2011 and Supp. 2013, Ch. 15, App. 1, and
In Re Amendments to Oklahoma Supreme Court Rules, 2013 OK 67. Based on our
I
!

review of the facts and applicable law, we affirm the trial court’s order.

BACKGROUND
This case originated in 2005 when Client was involved in a dispute with
Mooring Capital Fund over a mortgage foreclosure suit involving commercial
property she owned through her solely-owned corporation, Phoenix Central, Inc.
She was represented by two different attorneys during most of this time. The
foreclosure was originally filed in Cleveland County, Oklahoma, but was removed
to federal court.1 All but one of Phoenix’s counterclaims were later dismissed by
the federal court. Mooring was granted summary judgment against Phoenix on all

I

foreclosure-related claims. Phoenix’s counterclaim for an alleged breach of the
implied duty of good faith and fair dealing was allowed to go to trial. Meanwhile,

i

R. 39.
2
i

Client filed another state court claim against Mooring, involving another of her
companies. This too was removed to federal court, where all of Client’s claims but
one were dismissed. The trial court dismissed all of the claims except Client’s
personal claim for breach of the duty of good faith and fair dealing against
Mooring.
In 2008, the note was paid and the foreclosure action was dismissed. All
i

that remained of the original suits were Client’s and Phoenix’s claims against
Mooring for breach of the duty of good faith and fair dealing.
In January 2008, Client retained Attorneys, her third, who took the matter to

!

trial in 2009, resulting in a verdict for Phoenix on its tort claims, but against Client
in favor of Mooring, on her claims. Both sides were awarded an attorney’s fee.
Mooring was ordered to pay Phoenix’s fee and Client was to pay Mooring’s.

i

Attorneys refused to continue as appellate counsel, forcing her to retain a fourth
attorney. An appeal of the attorney’s fee award to the 10th Circuit with new
counsel failed in 2010.
I.

Client’s Malpractice Claim Against Attorneys

!

On October 11, 2012, Client filed suit against Attorneys. Client alleged that
during the 2009 trial, Attorneys did little to prevent Mooring’s attorneys from
submitting “false and misleading testimony” in furtherance of “evading and

I

3

concealing the true and relevant facts.”2 Further, Client alleged Attorneys failed to
report Mooring’s attorneys to the bar association for punishment.3 Client alleged
that Attorneys did not conduct the trial in a professional manner, specifically by
not making certain objections, not introducing certain evidence, insufficiently
cross-examining certain witnesses, allowing conflicting testimony introduced by
Mooring to be admitted without objection, failing to call certain witnesses, failing
to make appropriate arguments to the court and, in general, conducting the trial in a
way different than the way Client, a former CPA, would have tried the case.4
Client set out six “causes of actions” or more properly, theories of recovery,5
in her 22-page, 163 paragraph, Petition. In it, Client alleged she suffered damages
arising from Attorneys’ acts of: 1. unprofessional conduct; 2. breach of fiduciary
duty; 3. wrongful concealment; 4. negligence/negligent omission/neglect/failure to
prepare; 5. economic duress and; 6. emotional distress.
II.

Client’s Petition was Soon Dismissed, Appealed, and Remanded
This petition was originally dismissed by the trial court on February 7, 2017,

based upon 12 O.S.2011, § 19, a statute which had earlier been found
constitutionally invalid. On Client’s appeal of the trial court’s dismissal to this
2 R. 4.
3 Id.
4 R. 5-9.
5 “Oklahoma jurisprudence utilizes the transactional approach for its definition of a ‘cause
of action.’ Although different theories of liability may be pressed in support of each claim, only
a single cause of action can ordinarily be predicated upon one occurrence or transaction.”
Rodgers v. Higgins, 1993 OK 45, U 4, 871 P.2d 398, 402-03 (footnotes omitted).
4

Court, Attorneys confessed the order should be reversed because of the
unconstitutional basis of the order. This Court agreed in an opinion issued
January 22, 2018.6
Following remand from this Court, Attorneys answered Client’s petition on
January 22, 2018, denied her allegations and, after discovery had been conducted,
filed a motion for summary judgment on August 21,2018. Client responded on
September 20,2018. Following a hearing at which both parties appeared, the trial
court granted Attorneys’ motion for summary judgment in an order filed
October 1,2018.
More than ten days later, on October 31, Client filed a “Motion to Vacate,
Alter or Amend Judgment Granting Defendants Motion for Summary Judgment
and To Allow A Supplement To This Motion.” The trial court denied the motion
to vacate on January 4, 2019, resulting in this appeal.
STANDARD OF REVIEW
The trial court’s original order granting summary judgment was filed
October 1,2018.7 More than ten but less than 30 days later, on October 31, Client
timely filed her “Motion to Vacate, Alter or Amend Judgment Granting

6 See Appeal No. 115,831.
7R. 133.
5

Defendants Motion for Summary Judgment and To Allow A Supplement To This
Motion.”8
The trial court’s disposition of a motion to vacate
is reviewed for an abuse of discretion. Patel v. OMH
Med, Ctr., Inc,, 1999 OK 33,987 P.2d 1185. “An abused
judicial discretion is manifested when discretion is
exercised to an end or purpose not justified by, and
clearly against, reason and evidence.” Id. at If 20, 987
P.2d at 1194. When review of the district court’s
discretion in denying a motion to vacate is determined by
the propriety of an order granting summary judgment, the
abuse-of-discretion question is determined by de novo
review of the summary judgment order. Reeds v. Walker,
2006 OK 43, Tf 9,157 P.3d 100 (applying this standard to
review of motions denying a new trial after summary
judgment was granted). Cf. Patel, 1999 OK 33, If 20,
987 P.2d at 1194 (an order granting or denying a motion
for new trial and a motion to vacate are subject to the
same abuse of discretion standard of review).
MidFirst Bank v. Wilson, 2013 OK CIV APP 15,14, 295 P.3d 1142,1143-44.
III.

Pro se Litigant Standard

Client is representing herself in this appeal, appearing pro se.
We begin this analysis by noting that litigants proceeding
pro se in a civil action or a civil appeal are charged with
the responsibility of complying with the rules of
pleadings, evidence and appellate practice. Funnell v.
Jones, 1985 OK 73, 737 P.2d 105.
Lowe v. Cantrell, 2000 OK CIV APP 27, If 6, 1 P.3d 438,439.

R H7

I

ANALYSIS
We first examine de novo the underlying order granting summary judgment
to determine if it was correct, before reviewing the trial court’s disposition of the
motion to vacate the order granting summary judgment.
Attorneys’ motion for summary judgment argued that Client’s first, second,
third, and fourth theories of recovery require expert testimony be introduced in
order to establish prima facie evidence of her claims of legal malpractice. Client’s
admitted failure to do so, they contend, requires those theories be dismissed. The
remaining two theories of recovery, i.e., emotional and economic distress, do not
allege whether those were caused by negligence or were intentionally inflicted.
Regardless, according to Attorneys, those theories were not supported by any
evidentiary material by Client, and therefore must also be dismissed.
IV.

Expert Testimony Necessary to Prove Legal Negligence

Attorneys argue that in order to prevail on her professional negligence
theory, Client must establish a prima facie case by providing expert witness
testimony that Attorneys’ actions deviated from established professional standards
of care. This is a correct statement of law and is dispositive of Client’s first four
theories.
In Oklahoma, the mere allegation of legal negligence is insufficient for
recovery. Whether representing themselves pro se or by counsel, a plaintiff must

7

I

support those allegations with evidence. In a negligence case such as the one filed
by Client, she must prove:
The elements of negligence [which] are (1) the existence
of a duty on the part of a defendant to protect the plaintiff
from injury; (2) a violation of that duty; and (3) injury
proximately resulting from the violation. Sloan v. Owen,
579 P.2d 812, 814 (Okla. 1977)
Dirickson v. Mings, 1996 OK 2, ^ 7, 910 P.2d 1015,1018. In this case, Client has
alleged an attorney has committed an act of professional negligence. In Oklahoma,
I

The elements of a professional negligence claim
against an attorney are (1) existence of an attorney-client
relation, (2) a breach of duty arising from the relation,
and (3) injury proximately caused by the breach. See,
e.g, Myers v. Maxey, 1995 OK CIV APP 148, 915 P.'2d
940; Erwin v. Frazier, 1989 OK 95, 786 P.2d 61;
Allred v. Rabon, 1977 OK 216, 572 P.2d 979. Failure of
any one of the elements renders such a claim subject to
dismissal.
Whitehead v. Rainey, Ross, Rice & Binns, 2000 OK CIV APP 5, | 6, 997 P.2d 177,
179. More particularly, addressing Client’s argument,
We have no doubt that normally in a legal
malpractice case ... to recover damages for the lawyer’s
acts or omissions in breach of the lawyer's duty to the
client, it must be: shown through the presentation of
expert witness testimony that it was more probable than
not that some form of... relief would have been
obtained in a court proceeding, but for the attorney’s
failings....

Worsham v. Nix, 2006 OK 67, 34,145 P.3d 1055, 1066-67 (emphasis added).
This is in accord with the laws of sister states. A Connecticut court, for instance,
stated:
This court previously has explained that, as a general
matter, expert testimony is necessary in legal malpractice
cases in order to establish the standard of care, against
which the attorney’s conduct should be evaluated by the
jury. See, e.g., Grimm v. Fox, supra, 303 Conn, at 32930, 33 A.3d 205. We conclude that, although there will
be exceptions in obvious cases, expert testimony also is a
general requirement for establishing the element of
causation in legal malpractice cases. Because a
determination of what result should have occurred if the
attorney had not been negligent usually is beyond the
field of ordinary knowledge and experience possessed by
a juror, expert testimony generally will be necessary to
provide the essential nexus between the attorney’s error
and the plaintiffs damages.
Bozelko v. Papastavros, 323 Conn. 275,284-85,147 A.3d 1023, 1029-30 (2016).
The Bozelko Court then surveyed decisions from New York, Colorado, Idaho,
Missouri, and New Hampshire before concluding that expert witness testimony
was required to prove a claim of legal malpractice. Id. Further, New Hampshire
has addressed this issue and concluded:
We have previously held that, absent exceptional
circumstances, expert testimony is necessary to inform
the jury regarding the skill and care ordinarily exercised
by lawyers and to prove a breach thereof. [Wong v.
Ekberg, 148 N.H. 369, 373-74, 807 A.2d 1266 (2002)].
148 N.H. at 374, 807 A.2d 1266. We have also assumed,
without deciding, that expert testimony is required to
prove proximate cause. Follender v. Scheidegg, 142
9

N.H. 192,193, 698 A.2d 1237 (1997). Today, we
resolve this issue, and conclude that, in most instances,
expert testimony is required to prove causation in a legal
malpractice action.
In legal malpractice cases, “[e]xpert testimony
may be essential for the plaintiff to establish causation.
The trier of fact must be able to determine what... result
should have occurred if the lawyer had not been
negligent.” 5 R. Mallen & J. Smith, Legal Malpractice
§ 33.16, at 116 (5th ed. 2000). “[U]nless the causal link
is obvious or can be established by other evidence, expert
testimony may be essential to prove what the lawyer
should have done.” Id. We thus hold that expert
testimony on proximate cause is required “in cases where
determination of that issue is not one that lay people
would ordinarily be competent to make.” Delp v.
Douglas, 948 S.W.2d 483,495 (Tex.App.1997), rev’d in
part and vacated in part on other grounds, 987 S.W.2d
879 (Tex. 1999).
Carbone v. Tierney, 151 N.H. 521, 528, 864 A.2d 308, 314-15 (2004). Moreover,
In summary, a legal-malpractice plaintiff who contends
that his attorney’s negligence caused him to lose a claim
he otherwise would have won and collected on must
adduce expert testimony to prove the case-within-a-case
aspect of causation if that causal connection is beyond a
lay juror’s common understanding. See [Alexander v.
Turtur & Assocs., Inc., 146 S.W.3d 113, 117
(Tex.2004)], 146 S.W.3d at 119. If the plaintiff would
have needed medical-expert testimony to prevail in the
underlying suit, then the same kind of testimony is
required to prove the case within a case in the legalmalpractice suit.
Kelley & Witherspoon, LLP v. Hooper, 401 S.W.3d 841, 848-49 (Tex. App. 2013).
Finally, in a case with facts similar to those presented here, New Mexico has held:

10

Expert testimony in claims of legal malpractice means
testimony of lawyers. See Dorf v. Relies, 355 F.2d 488,
17 A.L.R.3d 1433 (7th Cir. 1966). The defendant
attorney presented affidavits of three lawyers that the
preparation, investigation and trial in Federal Court were
handled in a professional manner without negligence.
These affidavits stand uncontradicted by any expert
testimony. [Plaintiffs], except for their own affidavits
and attachments, presented no evidence in the trial court
by way of affidavits, depositions or testimony of any
lawyer to substantiate his claims that the trial attorney in
the Federal Court case ‘departed from the recognized
standards of (legal) practice in the community, or must
have neglected to do something required by those
standards.’ He relies on his own affidavits and
attachments. But the facts stated in the affidavits are
inadmissible, because departure from or neglect of legal
standards lies in the field of knowledge in which only an
attorney can give a competent opinion. Woods v.
Brumlop, 71 N.M. 221, 377 P.2d 520 (1962); U.J.I. 8.1,
both applicable to medical malpractice.
Sanders v. Smith, 1972-NMCA-016, f 14, 83 N.M. 706, 708—09,496 P.2d 1102,
1104-05.
We find these cases persuasive in our analysis.
Client is not alleging Attorneys failed to file a claim in time to prevent the
running of a statute of limitation, which could be an act of negligence so obvious
to a layman that, in most circumstances, would not require an expert’s opinion to
prove the failure to file was negligent. Instead, Client is alleging Attorneys failed
to conduct the trial in a way to guarantee success. She alleged, among other
things, that Attorneys did not adequately conduct re-direct examinations of

11

witnesses;9 failed to return the phone calls of Client’s fourth attorney, who had
been hired to handle her appeal;10 “failed and refused” to explain to Client why the
trial court entered the judgment it did;11 and failed to call certain witnesses.12 As
we understand her allegations, Client complains Attorneys violated a professional
standard of care because she was not adequately kept informed of Attorney’s preand post-trial decisions regarding her case, failed to apprise her of the status of her
case, and did not conduct the trial in a way that was satisfactory to her.
Viewing these allegations in the light most favorable to Client, these
allegations, among all the others and if true, may have influenced the outcome of
her trial. However, this does not mean Attorneys were negligent. For negligence
to be proven in this case, expert testimony is required to establish proof of a breach
of professional standards that resulted in damages to Client. As it is undisputed
that Client has failed not only to produce an expert witness’s testimony, but has not
even identified a potential expert witness, her claims of professional malfeasance
remain unproven and cannot withstand summary judgment.
Finally,
The mere contention that facts exist or might exist is not
sufficient to create a substantial controversy when the
party moving for summary judgment has introduced
9r. 10475.
10 R. 144 112.
" R. 144108.
12 R. 9,170.
12

evidence showing the existence of facts which would
preclude recovery by the party against whom the motion
is made.
Mengel v. Rosen, 1987 OK 23, 9, 735 P.2d 560, 563. Therefore, our de novo
review leads to the conclusion that summary judgment in favor of Attorneys was
correct, because Client has failed to prove an essential element of a negligencebased cause of action.
V.

Theory of Emotional Distress
Client claimed she suffered emotional distress as a result of Attorneys’

actions. Whether that distress is intentional or negligent, Client must prove the
elements of the claim. The Oklahoma Supreme Court has addressed this issue.
!

The negligent causing of emotional distress is not
an independent tort, but is in effect the tort of negligence.
Lockhart v. Loosen, 1997 OK 103, f 16, 943 P.2d 1074,
1081. Before emotional distress damages can be
awarded, a plaintiff must establish: a duty on the part of
the defendant to protect the plaintiff from injury, a failure
of the defendant to perform the duty, and an injury to the
plaintiff resulting from the failure. Kraszewski v. Baptist
Med. Ctr., 1996 OK 141, U 1, 916 P.2d 241, 243, fn. 1.
To recover for emotional distress under Oklahoma
law, “a plaintiff must... be a ‘direct victim’ rather than a
‘bystander.’” Kraszewski at 10. Direct victims are
those individuals who are “directly physically involved in
the accident,” but whose emotional distress results from
the suffering of another. Kraszewski at 8. Bystanders,
on the other hand, are those individuals who are not
directly involved in the accident, but are seeking
damages for emotional distress resulting from witnessing
the injury of another. Kraszewski at 7. See also
Shull V. Reid. 2011 OK 72, n. 5, 258 P.3d 521 (“The

!

!
j

plaintiff must be a victim, not a bystander, directly
involved in the incident, damaged from directly viewing
the incident and a close family relationship must exist
between the plaintiff and the party whose injury gave rise
to plaintiffs mental anguish”).
Ridings v. Maze, 2018 OK 18,

6-7,414 P.3d 835, 837-38. In this regard, Client

testified as follows:
Q

A
Q
A
Q
A

All Right. Okay. Now, emotional distress. Okay.
In connection with that claim, did Stanley Ward
cause you some physical injury? Did he hit you?
Did he slam you around? Anything like that?
No.
He didn’t, did he?
No.
All right. And so did he say or do anything that is,
in your view, outrageous in a civilized society?
No.13

Having failed to allege a fundamental element of the theory of emotional
distress, the trial court correctly granted Attorneys summary judgment on the issue
of emotional distress.
VI.
I

Claim of Economic Duress

Claimant testified she intended to withdraw her economic duress theory.
Q

A
Q

[]I want to go to this economic duress claim that
you’ve made on page 16 here. What contract did
you enter into with anybody under economic
duress as a result of something Stanley Ward did?
What contract?
Yeah. Economic duress claims are limited to
contract claims, and so I just want—

13 R. 79, Deposition of Judy Knight, May 8,2018, p. 121,11. 2-12.
14

!

A

Well, I may—I may take that one out anyway,
so ... }A

Summary judgment was properly granted on this theory. We therefore
conclude the underlying order granting summary judgment was proper.
VII. Motion to Vacate
Having determined the motion for summary judgment was properly granted,
we now turn to the arguments for its vacation raised in Client’s motion to vacate.
Client argues the trial court’s order should be vacated pursuant to 12 O.S.2011,
§§1031 and 1031.1.
The trial court considered the motion and held Client failed to meet her
burden under 12 O.S.2011, § 651. That section sets out the grounds for new trial.
Whether viewed as a motion to vacate or one for new trial, we review the trial
court’s decision in the same manner.
The standard of review for both denial of a motion for a
new trial and denial of a motion to modify or to vacate a
final order or judgment is abuse of discretion.
Capshaw v. GulfIns. Co., 2005 OK 5,17, 107 P.3d 595,
600. A trial court abuses its discretion when a decision is
based on an erroneous conclusion of law or where there
is no rational basis in evidence for the ruling. Childers v.
Childers, 2016 OK 95, f 28, 382 P.3d 1020, 1027.
However, “if the propriety of the trial court’s denial of
the ‘motion for reconsideration’ rests on the underlying
correctness of its decision to dismiss,” then the abuse of
discretion question is settled by our de novo review.
Smith [v. City ofStillwater,] 2014 OK 42, f 11, 328 P.3d
14 R. 78, Deposition of Judy Knight, May 8, 2018, p: 120,11. 14-25.

15

I

I

!

at 1197. “De novo review involves a plenary,
independent, and non-deferential examination of the trial
court’s legal rulings.” Sheffer v. Buffalo Run Casino,
PTE, Inc., 2013 OK 77, f 3, 315 P.3d 359, 361.
Fox v. Mize, 2018 OK 75, % 6, 428 P.3d 314, 319.
Client’s motion is at times disjointed and her arguments hard to follow.
Nevertheless, this Court discerns her assignments of error to simply reargue the
same issues addressed in the underlying motion for summary judgment. Client has
not presented any new evidence, new witnesses, or any new argument that would
suggest to this Court that entry of the trial court’s order was an abuse of discretion.
We therefore hold the trial court’s January 4, 2019, order denying Client’s
motion to vacate was correct and is affirmed.
AFFIRMED.

FISCHER, P J., and THORNBRUGH, J., concur.
May 9, 2019
'
;
i

• ... JV.

:■}

ft . •

;;

;
.* V.ri \

»

v\*.

16

la

APPENDIX A - ORDER OF THE COURT OF
CIVIL APPEALS OF THE STATE OF
OKLAHOMA (MAILED FROM CLERK)
STATING JUNE 24* ORDER DENYING
EXTENSION REQUEST “IMPLICITLY”
DENIED JUNE 3^ PETITION FOR
REHEARING ... FILED JAN 15 2020
IN THE SUPREME COURT OF THE STATE
OF OKLAHOMA
Wednesday, January 15, 2020
THE CLERK IS DIRECTED TO ENTER THE
FOLLOWING ORDERS OF THE COURT:
117,492

JUDY KNIGHT, individually, and
PHOENIX CENTRAL INC. V. WARD
& GLASS, PC, STANLEY WARD, an
Oklahoma professional corp., and
STANLEY WARD; ETAL. (Defendants)
Appellants' August 2, 2019 Petition for
Rehearing and Application for
Enlargement of Time to File Petition for
Rehearing is stricken from the Court
docket. A party cannot seek to file a
second petition for rehearing where the
Court of Civil Appeals' opinion remains
unchanged and the initial petition for
rehearing was denied. Okla. Supreme
Court Rule 1.177(b). "The Clerk shall not

2a

Appendix A
file any such motion or application after
the denial of a petition for rehearing."
The Court of Civil Appeals denied
Appellants' request to file a petition for
rehearing out of time on June 24, 2019,
implicitly denying the petition for
rehearing. Appellants cannot challenge
this decision by motion or second
petition for rehearing as the opinion
never changed.
118,481 - KYOTOCOOLING BV v. THE
HONORABLE SHAWN TAYLOR,
Judgeof the District Court of Mayes
County; and RAE CORPORATION
Real Party in Interest may respond to
Petitioner's Motion to Supplement the
Record on or before January 17, 2020.
s/Noma D. Gurich
CHIEF JUSTICE
Received 1-15-20
Docketed
PE
PE
Mailed
Distrib:
Publish _ YES -x-No

3a

APPENDIX B - ORDER OF THE COURT OF
CIVIL APPEALS OF THE STATE OF OKLAHOMA DENYING May 23rd APPLICATION FOR
ENLARGEMENT OF TIME TO FILE PETITION
FOR REHEARING AND May 23rd
APPLICATION TO EXCEED PAGE LIMIT
....Filed July 11, 2019
IN THE COURT OF CIVIL APPEALS OF THE
STATE OF OKLAHOMA
DIVISION II
JUDY KNIGHT, an individual, and
PHOENIX CENTRAL, INC. , an
Oklahoma corporation,
Plaintiffs/Appellants,
vs.
Case No. 117,492
WARD AND GLASS, et al an
Oklahoma professional corporation, and
STANLEY WARD, and JOHN or
JANE DOES 1-10, individuals or
corporations
Defendants/Appellees
ORDER
Appellant's Application For Enlargement Of
Time To File A Petition For Rehearing, And
Application To Exceed Page Limit is denied.

4a

Appendix B
SO ORDERED this 11™ day of July, 2019.
ALL JUDGES CONCUR.

JOHw F. FISCHER
Presiding Judge, Division II

i

5a

APPENDIX C-ORDER OF THE COURT OF CIVIL
APPEALS OF THE STATE OF OKLAHOMA APPELLANTS June 3rd MOTION TO
IMMEDIATELY FILE PETITION FOR
REHEARING OUT OF TIME IS DENIED AND
APPELLEES MOTION TO STRIKE IS DENIED
AS MOOT....Filed Jun 24, 2019 (Postmarked
6/24/19)
IN THE COURT OF CIVIL APPEALS OF THE
STATE OF OKLAHOMA
DIVISION II
JUDY KNIGHT, an individual, and
PHOENIX CENTRAL, INC., an
Oklahoma corporation,
Plaintiffs/Appellants,
vs.
Case No. 117,492
WARD AND GLASS, et al an
Oklahoma professional corporation, and
STANLEY WARD, and JOHN or
JANE DOES 1-10, individuals or
corporations
Defendants/Appellees
ORDER
Appellants Motion To Immediately File
Petition For Rehearing Out Of Time is hereby
denied. Appellees’ Motion To Strike Petition For
Rehearing is denied as moot.

6a

Appendix C
SO ORDERED this 20™ day of June, 2019.
ALL JUDGES CONCUR.

!

Presiding Judge, Division II

7a

APPENDIX D- ORDER OF THE COURT OF CIVIL
APPEALS OF THE STATE OF OKLAHOMA
PROMPTING APPELLEE MAY FILE A
RESPONSE TO APPELLANT'S APPLICATION
FOR ENLARGEMENT OF TIME TO FILE A
PETITION FOR REHEARING, AND
APPLICATION TO EXCEED PAGE LIMIT Filed
June 3rd, 2019
IN THE COURT OF CIVIL APPEALS OF
THE STATE OF OKLAHOMA DIVISION II
JUDY KNIGHT, an individual, and
PHOENIX CENTRAL, INC., an
Oklahoma corporation,
Plaintiffs/Appellants,
vs.

Case No. 117,492

WARD AND GLASS, et al, an
Oklahoma professional corporation, and
STANLEY WARD, and JOHN or
JANE DOES 1-10, individuals or
corporations
Defendants/Appellees
ORDER

8a
Appendix D
Appellees may file a response to Appellant's
Application for Enlargement of Time to File a
Petition for Rehearing, and Application to Exceed
Page Limit within fifteen (15) days of the date this
Order is filed.
SO ORDERED this 30 day of May, 2019.
ALL JUDGES CONCUR.

Presiding Judge, Division II

9a

APPENDIX E- OPINION OF THE COURT OF
CIVIL APPEALS OF THE STATE OF
OKLAHOMA CONFIRMING THE LOWER
COURT -Filed May 9™ , 2019
NOTE: INCLUDED HERE ONLY THE COVER
PAGE — FOR PROOF OF DATE FILED
ORIGINAL
NOT FOR OFFICIAL PUBLICATION
IN THE COURT OF CIVIL APPEALS OF THE
STATE OF OKLAHOMA
DIVISION II
JUDY KNIGHT, an individual, and)
PHOENIX CENTRAL, INC., an
)
Oklahoma corporation,
)
Plaintiffs/Appellants,
)
VS. )
Case No. 117,492
WARD & GLASS, P.C„ an Oklahoma)
professional corporation, and
)
STANLEY WARD,
)
Defendants/Appellees,
)
And JOHN or JANE DOES 1-10, )
individuals or corporation
)
Defendants.
)

10a

Exhibit E
APPEAL FROM THE DISTRICT COURT OF
CLEVELAND COUNTY, OKLAHOMA
HONORABLE AARON DUCK, TRIAL JUDGE
AFFIRMED
Judy Knight
Pro se
Norman, Oklahoma
Charles F. Alden, III
Oklahoma City, Oklahoma
For Defendants/Appellees
OPINION BY JERRY L. GOODMAN, JUDGE
AFFIRMED Fischer, P. J. and THORNBRUGH,
May 9 2019
J concur

11a

APPENDIX F- - APPELLANTS OBJECTION
AND RESPONSE TO APPELLEES MOTION TO
STRIKE PETITION -Filed June 21ST 2019
Received 6-21-19stamp
ORIGINAL
IN THE
Court of Civil Appeals
of the State Of Oklahoma
Division II
Judith Knight and
Phoenix Central, Inc,
Plaintiff/Appellants
Supreme Court No. 117492
v
Ward & Glass
Stanley Ward, and
John or Jane Doesl-10
Individuals or Corps
Defendant/Appellees
APPELLANTS OBJECTION AND RESPONSE
TO APPELLEES MOTION TO STRIKE
It is ironic that Appellee asserts Appellant
chose to ignore a rule of this Court while themselves
filing a Motion to Strike under the same conditions
alleged:
Appellee stated:

12a

Appendix F
"Despite the fact that Appellant sought
an extension of time and despite the fact
that this Court directed Appellee to
respond, Appellant chose to ignore the
rules and to await the ruling of this
Court on her request for extension of
time,"
Appellant is unaware any rule that one may
wait to file no matter how long until a ruling is
made- on a request for an extension of time. If that
was true the activities would [not] have been
conducted at all since 3 previous requests were never
responded to by the trial court.
Appellee continued stating:
“she chose to ignore this requirement and
to await the ruling of this Court on her
request for extension of time,"
Assumes fact not in existence. Appellant was not
aware of this Court's notice to Appellee at the time of
filing of the Petition.
Appellee then contended:
"Such wholesale disobedience of the
Rules should not be permitted and the
Petition for Rehearing should be
stricken."

i

13a

Appendix F
Appellant wonders where is this mystical rule
written?
And whether if such rule exists, is not Appellee also
bound by it and in violation by filing the Motion to
Strike prior to the Court ruling on those requests?
And if so, is Appellee also guilty of
disobedience or of misconduct?
Appellee has in fact made the opposite
argument when similar requests were ignored in the
court below.
It seems to Appellant that the Motion to
Strike is inappropriate under the presented
argument and should be denied.
Appellant also asks that if requests for
additional time and pages are granted the Court
instruct Appellant whether to amend or supplement
the Petition For Rehearing.
Respectfully,
s/ Judith Knight
Judith Knight
Appearing Pro Se

Dated June 21. 2019

14a

Appendix F
1010 N Flood
Norman, Oklahoma 730
1-405-447-1010
CERTIFICATE OF MAILING
I hereby certify that on the 21 day of June,
2019 upon filing, a true and correct copy of the above
and foregoing document will be mailed, postage
prepaid, to:
s/Judith Knight
Charles Alden III
309 N.W. 9th Street
Oklahoma City, Oklahoma 73102
Attorney for Appell[ees]

I

15a

APPENDIX G-APPELLANTS REPLY TO
APPELLEES OBJECTION TO APPELLANTS
REQUEST FOR EXTENSION -Filed June 17TH
2019
Judith Knight and
)
Phoenix Central, Inc,
)
Plaintiff/Appellants
)
v.
Supreme Court No 117492)
Ward & Glass
)
Stanley Ward, and
)
John or Jane Doesl-10
)
Individuals or Corps
)
Defendant/Appellees
)
APPELLANTS REPLY TO APPELLEES'
OBJECTION TO APPELLANT'S REQUEST
FOR EXTENSION OF TIME TO FILE
PETITION FOR REHEARING AND FOR
EXCEEDING PAGE LIMITATION
Appellee has no basis for asserting:
'Moreover, when considered in light of the
concurrent application to exceed page
limit that Appellant intends to inject
factual and/or evidentiary material into
this appeal that is not part of the
record."

16a

Appendix G
There is no indication within Attorneys
pleadings that suggest special powers of divination
that enables him to know what will be presented in a
future document.
On May 23rd Appellant filed for an Extension
of time and for additional pages to file a Petition for
Rehearing.
These requests were not acknowledged by this
Court until a Court Order that was filed on June 3rd
(although signed on May 30th) stated Appellee "may
file a response...".
Having no acknowledgement of a ruling on
those requests Appellant began editing the Petition
to reduce the pages.
On June 3rd, without knowing of the Order
filed the same day, Appellant filed a Motion To
Immediately File Petition For Rehearing Out
Of Time and the pared down Petition for
Rehearing.
Although Appellees concurrently filed a
Motion to Strike the Petition for Rehearing
Appellees did not file a protest nor even acknowledge
the accompanying Motion to file out of time.
Client prays that this court will, in
conjunction with this Reply, also consider the
information provided in the Motion To

17a

Appendix G
Immediately File Petition For Rehearing
Out Of Time.
During the pendency of this case, still at
beginning stages of discovery (under 3 hours by
Appellees), Appellants have requested time (on 4
occasions, 3 below) and space in order to identify and
rebuke the many incorrect, misrepresented and
ignored statements, including background analysis.
It was unjust and a denial of Clients rights to ignore
those requests.
Appellees state:
MA simple perusal of the opinion
immediately reveals that it understood
and dealt with all of the issues relevant
to the trial court's refusal to vacate the
underlying summary judgment..."
Any opinion is naturally going to present a
basis in support of the decision. However that will
not disclose any misunderstood, misinterpretations
or omissions of information in forming the basis.
When as here, there is a near total absence of
identification or rebuke of Appellants factual
assertions, including statutory and common law such
opinion is unreliable.
What was needed was a comprehensive,
comparative, impartial and thoughtful review of all

18a

Appendix G
the information provided by both sides. There is no
indication this was done.
The Opinion also clearly shows reliance on an
inappropriate statute which in turn demonstrates
the Court's failure to consider Appellants arguments
and suggests that none of Appellants arguments
were given consideration.
The method to redress these wrongs are
through a rehearing.
Appellant can think of no way to correct the
misconceptions short of line by line showing of
errors.
The volume of misrepresentations by
Appellees and ignored proofs by this Court cannot be
presented within the page limits which in turn will
require an extension of time.
WHEREAS, Appellees misrepresentations
have misled the Court and caused the need for these
requests,
WHEREAS, Appellees Objection is
unsupported
WHEREAS, Appellees have not contended
that approval of Appellants requests will prejudice
their case.

19a

Appendix G
WHEREFORE, Appellant pray that the
extension of time and additional pages be approved
as would be just.

Respectfully submitted
s/ Judy Knight
Appearing Pro Se
1010 N Flood
Norman, Oklahoma 73069
1-405-447-101
Oated June 17 2019
CERTIFICATE OF MAILING
I hereby certify that on the 17th day of June,
2019 upon filing, a true and correct copy of the above
and foregoing document will be mailed, postage
prepaid, to:
Charles Alden III
s/Judith Knight
309 N.W. 9th Street
Oklahoma City, Oklahoma 73102
Attorney for Appell[ees]

20a

APPENDIX H--APPELLEES MOTION TO
STRIKE PETITION FOR REHEARING-Filed
June 5th 2019
IN THE COURT OF CIVIL APPEALS OF
THE STATE OF OKLAHOMA
DIVISION II
JUDY KNIGHT and PHOENIX CENTRAL,)
)
INC.,
)
Plaintiffs/Appellants,
)

vs.

Case No. 117,492

)

WARD and GLASS,
STANLEY WARD and
JOHN or JANE DOES 1-10,
Defendants/Appellees.

)
)

)
)

Cleveland County Case No. CJ-2012-1540
APPELLEES MOTION TO STRIKE
Appellees above named move the Honorable
Court to strike the Petition for Rehearing filed by
Appellant on June 3, 2019. for the following reason:
The Petition for Rehearing was filed out
1.
of time without leave from this Court Rule 1.13(a),
Oklahoma Supreme Court Rules, requires that a
Petition for Rehearing be filed no later than twenty

21a

Appendix H
(20) days after the date on which this case was filed
which is May 9, 2019. Despite the fact that Appellant
sought an extension of time and despite the fact that
this Court directed Appellee to respond, Appellant
chose to ignore the rules and to await the ruling of
this Court on her request for extension of time, she
chose to ignore this requirement. Such wholesale
disobedience of the Rules should not be permitted
and the Petition for Rehearing should be stricken.
In any event, and should this Court choose to
deal with the Petition, the same should be denied
because it states no legal basis.to either rehear this
appeal or to reverse the trial court.

Separately and as directed by this Court, Appellee has
objected to the extension of time and Appellant's request to
exceed the page limit.

ONLY PARTIAL - REST NOT ON FILE
and now stricken

22a
i

APPENDIX I-APPELLEES OBJECTION TO
APPELLANTS REQUEST FOR EXTENSION OF
TIME TO FILE PETITION FOR REHEARING
AND FOR EXCEEDING PAGE LIMITATION
Filed Jun 5th 2019.
IN THE COURT OF CIVIL APPEALS OF
THE STATE OF OKLAHOMA
JUDY KNIGHT and PHOENIX
)
CENTRAL,) INC •5
)
Plaintiffs/Appellants,
)

vs.

Case No. 117,492
)

WARD and GLASS,
STANLEY WARD and
JOHN or JANE DOES 1-10,
Defendants/Appellees.

)
)
)
)

Cleveland County Case No. CJ-2012-1540

APPELLEES' OBJECTION TO
APPELLANT'S REQUEST FOR EXTENSION
OF TIME TO FILE PETITION FOR
REHEARING AND FOR EXCEEDING PAGE
LIMITATION
Appellees above named object to an extension
of time to file Petition for Rehearing on the authority
of Oklahoma Supreme Court Rule 1.13(h) which
provides, in relevant part:

23a

Appendix I
Applications for extension of time to file
petitions for rehearing are not favored
and are not routinely granted. ... the
application will be granted only if the
Court determines that extraordinary
cause is shown in the application ...
(Emphasis added; italics from rule itself).
The application currently before the Court does not
make any showing of extraordinary cause to grant
the requested extension. The conclusory statement
that this Court somehow misunderstood the issues in
this appeal is not just insufficient to show
extraordinary cause, it is erroneous. A simple
perusal of the opinion immediately reveals that it
understood and dealt with all of the issues relevant
to the trial court's refusal to vacate the underlying
summary judgment in considerable detail and the
Court's ruling was supported by applicable legal
authorities.
In sum, the application for extension of time
should be denied, in addition, and given her
apparent attempt to inject material into the record,
the request to exceed the page limit should also be
denied.

24a

Appendix I
Moreover, when considered in light of the
concurrent application to exceed page limit that lant
intends to inject factual and/or evidentiary
material into this appeal that is not part of the
record.
Dated this 5th day of June, 2019.

Charles Alden III
309 N.W. 9th Street
Oklahoma City, OK 73102
(405) 235-5255
(405) 235-8130 fax
LawyerQ1870 aol.com
Attorney for Appellees
CERTIFICATE OF MAILING
I hereby certify that on the 52S day of June,
2019, a true and corect copy of the foregoing pleading
was mailed, postage prepaid, to:
Judy Knight
1010 North Flood
Norman. OK 73069

25a

APPENDIX J - PETITION FOR REHEARING Filed June 3, 2019
1043787450

IN THE COURT OF CIVIL APPEALS OF THE
STATE OF OKLAHOMA
Division II
Judith Knight and
Phoenix Central, Inc,
Plaintiff/Appellants
Supreme Court No. 117492
v.)
Ward & Glass
Stanley Ward, and
John or Jane Doesl-10 Individuals or Corps
Defendant/Appellees
)
Defendant/Appellees
)
ON PETITION FOR REHEARING OF APPEAL
OF PLAINTIFFS/APPELLANTS/PETITIONERS
Appeal from the District Court of Cleveland County
Honorable Aaron Duck Case cj-2012-1540
General Negligence
Judy Knight,
1010 N. Flood
Norman, Oklahoma 73069
(405) 447-1010
Minil010@AOLCOM
Appearing Pro Se
PETITION FOR REHEARING

26a

Appendix J
Section RULE and 1.13(h) and 1.177 - PETITION
FOR REHEARING,
Respondent/Appellant, ("Client"), petitions
this Court to rehear this appeal and withdraw its
opinion affirming the trial court's grant of summary
judgment (Judgment) in favor of
DefendantsYAppellees (Attorney) and its denial of
Appellant's Motion to Vacate, Alter or Amend the
Judgement ("Appellant's Motion"), and reverse and
remand so the parties can proceed to trial on the
merits. Appellants petition for rehearing the Opinion
filed May 9, 2019, entering judgment in favor of
Appellees and affirming the decision of the District
Court of Cleveland County. A panel rehearing is
appropriate when a material point of law was
overlooked in the decision. Fed. R. App. P. 40(a)(2).
An en banc rehearing by this Circuit is proper when
(1) the panel decision conflicts with a decision of the
Supreme Court or a decision of this Circuit so that
consideration by the full Court is necessary to secure
or maintain uniformity of the Court's decisions or
(2) the case involves a question of exceptional
importance because it conflicts with an opinion of
another court of appeals and substantially affects a
rule of national application in which there is an
overriding need for national uniformity. Fed. R.
App. P. 35(b); 9th Cir.

!

27a

Appendix J
In the judgment of Client, the panel's decision in
this matter overlooks material points of law and does
not address a resulting conflict with other
decisions of this Court and District Courts.
Also, because of this conflict, consideration by the
full court is necessary to secure and maintain
uniformity of the Court's decisions. Furthermore, the
panel's decision conflicts with the decisions of other
courts of appeal.
In addition one decision is based largely on
Attorneys misrepresentations and the other on the
wrong Statute.
23 Summary relief issues stand before
the appellate courts for de novo review,
and all facts and inferences must be
viewed in the light most favorable to the
non-movant. Just as trial courts "are
called upon to do in deciding whether
summary relief is warranted in the first
instance, so also do appellate tribunals
bear an affirmative duty to test for its
legal sufficiency all evidentiary material
received in summary process as support
for the relief granted." Liddell v.
Heavner, 2008 OK 6, ^ 7, 180 P.3d 1191,
1196. (Citations omitted.) Whether a

28a

Appendix J
cause presents a case for application of
the doctrine of res ipsa loquitur presents
a question of law. Harder v. F.C. Clinton,
Inc., 1997 OK 137, 948 P.2d 298.
Further, when res ipsa loquitur is
invoked, the focus on review of the grant
of summary judgment is not on the
sufficiency of evidence (or evidentiary
material), but rather on whether, in light
of the applicable pattern of proof which
is a plaintiffs due under that doctrine,
the record as a whole (a) shows
undisputed facts on the material issues
and (b) will support a single inference in
favor of the movant's request for
summary
judgment.
Jackson
v.
Oklahoma Memorial Hospital, 1995 OK
112, 909 P.2d 765.
1. STATEMENT REGARDING PRESENTATION
IN THIS PETITION.
While it is easy to identify injustices, it is
another matter to coherently describe them in
accordance with procedures, rules and lack of
proficiency in "legalese" language.
To properly overcome the many
misrepresentations, Client needed both additional

i

29a

Appendix J
time and additional pages to properly respond. The
lower court ignored such requests and as a
consequence the issues were not as could have been.
Whereas the last draft was far in excess of the page
limit, Appellants deletions to comply have now less
the number of pages, at the expense of many
important arguments, but has no time to review and
correct as necessary for a proper presentation.
This is even more important since under an
accelerated appeal no briefs are permitted. This
Court has likewise not responded to a request for
additional time filed May 23rd to file this Petition
therefore Appellant is not satisfied with the
presentation herein and prays for the Court's
indulgence with my apologies.
2. ISSUES
1.
This Court's summary of the Backgound
is incomplete at the least and inaccurate in relevant
details, at the most. The inaccuracies may have
improperly influenced the Court.
2.
This Petition is made on the grounds
that this Court issued a decision holding there was
no abuse of discretion by the trial court and no
reversible error. See Opinion entered herein May
9th, 2019.
3. At the hearing on the Motion for Summary
Judgment the District Court Judge granted
Summary Judgment based on misrepresentations by

30a

Appendix J
Defendant that Plaintiff was refusing to submit
testimony from an attorney as expert testimony in
support of Plaintiffs complaints and that expert
testimony was absolutely required on each and every
allegation.
In the District Court Appellees sole plea
4.
was that Appellants claims required expert
testimony, that none could be tried under the
doctrine of Res Ipsa Loquitor and since no expert
was currently available, summary judgment was
required.
In addition the ruling on the Motion to
5.
Vacate was issued based on an inappropriate and
inapplicable Statute.
This Court's Claim Client's Malpractice Claim
Against Attorneys.
Client set out six "causes of actions" or more
properly, theories of recovery,5
Oklahoma jurisprudence utilizes the
transactional approach for its definition
of a cause of action.' Although different
theories of liability may be pressed in
support of each claim, only a single cause
of action can ordinarily be predicated
upon one occurrence or transaction."
Rodgers v. Higgins, 1993 OK 45, | 4, 871
P.2d 398, 402-03 (footnotes omitted).

31a

Appendix J
That case is distinguishable, in that there was
one event, a tainted transfusion, from which the
patient contracted Hepatitus "C".
Separate Causes of action is appropriate.
As one example, the loss of Ms. Knight's case
was caused by the Attorney withdrawing her from
the case at a pre-trial hearing the day of the trial
without discussing that or even informing her of that
action., even after trial when she tried to get an
answer to how that could have happened.
Prior to Ward's entry, the court had
determined that Mooring had breached the contract
by overstating the balance. Since Ms. Knight and
Phoenix were both liable on that contract, it is
axiomatic that decision would have been the same
for both parties but for Ward's concession.
This is not beyond the common sense of the
jury. It most certainly should not have been beyond
of the understanding of the Defendants or the sitting
Judge.
As a result, the court determined that Mooring had
prevailed thereby charged her with fees of $88000
awarded to Mooring instead of winning an award of
fees charged to Mooring as was to Phoenix.The
Petition provides more detail than required the

32a

Appendix J
Simple Pleading Code in the hopes of avoiding
lengthy litigation. Truthful answers would under
have been a good start, but alas that was not to be.
On the other hand, Attorneys blanket denials
would seem to furnish the basis of disputed issues
necessary to defeat summary judgment.
This Court's Claim II. Client’s Petition was Soon
Dismissed. Annealed, and Remanded
The date of 2017 is not accurate, deemed
dismissed after appeal due to Attorneys failure to
properly file the years earlier ruling and presenting
indefensible arguments as the constitutionality of his
claim causing over 4 years to get to that point.
Appellants pleadings quoted exact statutes in
the matter of memorializing the order and also in the
Sec 19 debate. Nevertheless Appellee counsel refused
to acknowledge facts causing the inordinate delay.
This is seemingly typical tactic of that counsel as in
demonstrated in the instant proceedings.
Please take judicial notice of Appeals 115831 and
114172.

This Court's Claim IV. Expert Testimony
Necessary to Prove Legal Negligence

33a

Appendix J
This Court has wholesale adopted attorney
arguments. And in fact has seemingly gone to some
effort to provide arguments by presenting cases not
previously argued in defense of Attorneys argument
that expert testimony is required, while ignoring
client's citations entirely.
PG 8-12 is taken up of cases this Court found
and relied on to arrive at its decision. Only one of
those New Mexico case was argued by Plaintiff. None
of the cases are Oklahoma cases. The Court fails to
note the conditional remarks in those decisions. They
include the following:
Bozelko v. Papastavros, Grimm, v. Fox,
(Conn.) "as a general matter",, "although
there will be exceptions in obvious
cases", "negligent usuall}7 is beyond the
field of ordinary knowledge and
experience" Wong u. Ekberg,(N.H.)
absent exceptional circumstances:
Follender u. Scheidegg, N.H. "We have
also assumed, without deciding," "in
most instances, " Carbone v.
Tierney,N.H.citing Mallen & J. Smith,
Legal Malpractice "[UJnless the causal
link is obvious or can be established by
other evidence, expert testimony may be
essential "Delp v. Douglas ((Tex) in cases
where determination of that issue is not
one that lay people would ordinarily be

34a

Appendix J
competent to make." Alex Turtur cited in
Kelly Witherspoon (Tex.) Sanders u
Smith (N,M) citing Dorf u. Relies (N.M.)
(See Clients analysis re this case in the
District Court, the only case cited by
Attorney
Attorneys listing of 10 other cases with no
cites in its Motion is in violation of pleading codes.
This Court's narrative does not acknowledge
any of Clients cites nor did the Attorneys. Therefore
the conclusion must be that they are not disputed as
being inapposite to Attorneys claims.
Attorneys statement "even though Mr. Ward
actually prevailed upon a trial of the underlying
case" (R46). is simply wrong, The decision that
Mooring breached the contract was made before
Attorney entrance.
Client argued: Defendants would have the
rules before Zeier and Marouk and Davis reinstated
by replacing the terms requiring affidavit of merit
with expert testimony the day after filing.
It is not necessary that Client have an
attorneys testimony at this stage of the case if ever.
R 127

35a

Appendix J
This Court’s Claim THIS COURT'S
ANALYSIS p7
Client's first, second, third, and fourth
theories of recovery require expert testimony be
introduced in order to establish prima facie evidence
of her claims of legal malpractice
IV.
Expert Testimony Necessary to Prove
Legal Negligence
In Oklahoma, the mere allegation of legal
negligence is insufficient for recovery. Whether
representing themselves pro se or by counsel, a
plaintiff must support those allegations with
evidence. "Clients admitted failure requires those
theories be dismissed."
The statements "did not conduct the trial in a
way that was satisfactory to her" and "than the way
Client, a former CPA, would have tried the case" are
derogatory suggesting prejudice —
When is the failure to admit information into
evidence after testimony allowed a sign of competent
conduct. That is what happened- the jury requested
the damages schedule and the trial court said since
it had not been admitted, they could not have it. It is
reasonably inferable that the jury wanted to award

36a
!

Appendix J
something, but did not sans such schedule. The trial
transcript shows that failure.
Client testified that Dena, her previous
appeals attorney from Colorado might testify and
that Clients problem was finding an attorney that
would testify against another attorney on these
matters, perhaps in his/her own self preservation.
Defendant has not provided any facts only ipse
dixit.
Client furnished proof shown in the court
records of the 10th circuit where they stated
Attorney had failed to preserve or present various
issues. Those statements would certainly be
pronounced by experts. Attorney denied this in spite
of that being a matter of record.
This Court's conclusion was:
Therefore, our de novo review leads to the
conclusion that summary judgment in favor of
Attorneys was correct, because Client has failed to
prove an essential element of a negligence-based
cause of action.
JOHN v. ST. FRANCIS HOSPITAL, INC.
In ruling on 19.1 If 31 the Court stated it
functionally, operates on a subset of

37a

Appendix J
negligence plaintiffs for different
evidentiary treatment based on the type
of action the plaintiff pursues.
K 32 A prima facie case of medical
malpractice, like all negligence claims,
contains three elements: (a) a duty owed
by the defendant to protect the plaintiff
from injury, (b) a failure to properly
exercise or perform that duty and (c)
plaintiffs injuries proximately caused by
the defendant's failure to exercise his
duty of care. Robinson v. Okla.
Nephrology Assoc., Inc., 2007 OK 2, 9,
154 P.3d 1250, 1253-54. Although all
negligence plaintiffs must substantiate
all three elements during the course of
the litigation, one need not do so to a
specifically high level of probability or
absolute certainty before entering the
courthouse doors. Id. 11, 154 P.3d at
1254; see also, Wall, t 8, 302 P.3d at 780
Thus, unless we violate Oklahoma
Constitution Article II, section 6 and
Article 5, section 46, the statute defining
qualified expert found at Title 63, 11708.1C of the Oklahoma Statutes, and
simultaneously overrule Wall v. Marouk,
2013 OK 36, 302 P.3d 775, and Zeier v.
Zimmer, 2006 OK 98, 152 P.3d 861,

38a

Appendix J
there is but one result this Court can
reach, f 34 Section 19.1, found at Title
12 of the Oklahoma Statutes, is an
impermissible barrier on a plaintiffs
guaranteed right to court access and an
unconstitutional special law.
Footnote 2.^ 6 The district court certified
its ruling pursuant to Okla. Stat. tit. 12,
952(b)(3) ,2 In pertinent part, that
section reads*......
(b) The Supreme Court may reverse,
vacate or modify any of the following
orders of the district court, or a judge
thereof:. . ..2. An order that discharges,
vacates or modifies or refuses to vacate
or modify a provisional remedy which
affects the substantial rights of a party;
or grants, refuses, vacates, modifies or
refuses to vacate or modify an injunction;
grants or refuses a new trial; or vacates
or refuses to vacate a final judgment;. . .
.The failure of a party to appeal from an
order that is appealable under either
subdivision 2 or 3 of subsection (b) of this
section shall not preclude him from
asserting error in the order after the
judgment or final order is rendered.
Okla. Stat. tit. 12, 952(3)(3

39a

Appendix J
This Court has previously noted that one
of the inquiries regarding whether a law
is a general law, as opposed to a local or
special law, "concerns whether there is a
proper and legitimate classification,
whether the classification is arbitrary or
capricious, or whether it bears a
reasonable relationship to the object to
be accomplished." City of Enid v. Public
Employees Relations Bd., 2006 OK 16,
If 13, 133 P.3d 281; Sanchez u. Melvin,
1966 OK 116, 114, 18 OK 116. See Wall,
2013 OK 36, 15 ("A law is special if it
confers particular privileges or imposes
peculiar disabilities or burdensome
conditions in the exercise of a common
right on a class of persons arbitrarily
selected from the general body of those
who stand in precisely the same relation
to the subject of the law.").
STANDARD OF REVIEW
However, an order disposing of a term-time
motion to vacate, filed under 12 O.S. 1991 § 1031.1,
is a separately appealable, post-judgment event. The
correct standard of review employed upon a motion
to vacate is whether sound discretion was exercised
to vacate the earlier decision. See Schepp v. Hess,
1989 OK 28, 770 P.2d 34. The reviewing court does
not look to the original judgment, but rather the
correctness of the trial court's response to the motion

40a

to vacate. Yery v. Yery, 1981 OK 46, 629 P.2d 357;
Schepp, 770 P.2d at 42. As a result, we apply the
abuse of discretion standard.
U12 We generally review a trial court's
decision to vacate or refuse to vacate a judgment
under an abuse of discretion standard. Farm Credit
Bank of Wichita v. Trent, 1997 OK 70, f 21, 943 P.2d
588. However, in Schweigert v. Schweigert, 2015 OK
20,1 7, 348 P.3d 696, the Supreme Court instructed:
Although this Court reviews a district court's
denial of a motion to vacate for abuse of discretion,
the order denying a motion to vacate, like a motion
for a new trial, will be reversed if the district court
erred with respect to an unmixed question of law.
Jones, Givens, Gotcher & Bogan, P.C. v. Berger,
2002 OK 31, H 5, 46 P.3d 698, 701. The district
court's construction and application of § 651(7) to the
undisputed facts before it presents a pure question of
law subject to de novo review. Id.
6.
Appellant filed both a Motion to Vacate
in the District Court and a Petition in Error with the
Supreme Court on October 31, 2018.
7.
As to the Motion, Attorneys Objection was
filed November 28th and Clients Reply was filed
December 18th. And the lower court's ruling signed
December 31 and filed January 4th, 2019.

41a

Appendix J
8.
There was no hearing on Clients Motion
in spite of the fact a hearing was scheduled for
January 25, 2019 and no notice was provided that it
was cancelled. Court ruled that § 651 had not been
met.
9.
Plaintiff appeared at the scheduled time
and was permitted to talk with the Judge in spite of
another case being heard at that time.
10.
The Judge said he didn't know there
was supposed to be a hearing and that he had ruled
on the Motion without reviewing Defendant's
response or Plaintiffs reply to the Response and that
he would not expand on his ruling of dismissal which
only stated “Clients failure to comply with § 651”
11.
After Plaintiff produced copies of the
responsive filings that predated his ruling, he
noticed he had in fact signed the notice of hearing
but would not discuss the ruling further "just wait to
see if the Appeals Court sends it back."
12.
The District Court then issued an order
which in essence he dismissed the Motion “because
he could”.
Where a judgment is rendered against
defendants and they file a motion to vacate within

Appendix J

42a

the term, the ruling thereon should be based upon
judicial discretion in the interest of substantial
justice and if the motion is overruled and all of the
circumstances demonstrate that it could well have
been sustained without serious injustice, and that its
denial results in serious injustice, and constitutes an
abuse of judicial discretion, this court on appeal will
reverse.
If this Court considers the motion to be one for
a new trial, it is ineffective, because it was filed more
than ten days after the final Decree was filed
A motion for new trial, however styled,
which is filed after the expiration of ten
days following the decision, is treated as
ineffective. Timeplan Corporation v.
O'Connor, Okl., 461 P.2d 935
(1969),Sellers v. Oklahoma Pub. Co.,
1984 OK 11, t 13, 687 P.2d 116, 119. A
motion for reconsideration does not exist
in Oklahoma practice and procedure.
A "motion to reconsider" does not
technically exist within the statutory
nomenclature of Oklahoma practice and
procedure. Pierson v. Canupp, 1988 OK
47, H 3 n. 1, 754 P.2d 548; Sellers v.
Oklahoma Pub. Co., 1984 OK 11, If 11,
687 P.2d 116. However, if timely filed, a
"motion to reconsider" may be treated as

43a

Appendix J
a motion for new trial under 12 O.S. §
651 (if filed within ten (10) days of
the filing of the judgment, decree, or
appealable order), or it may be treated as
a motion to modify or to vacate a final
order or judgment under the terms of 12
O.S. §§ 1031 and 1031.1 (if filed after ten
(10) days but within thirty (30) days of
the filing of the judgment, decree, or
appealable order). Pierson, 1988 OK 47,
1 3 n. 1, 754 P.2d 548; Schepp u. Hess,
1989 OK 28,'1 1 n. 2, 770 P.2d 34. Smith
v. City of Stillwater, 2014 OK 42, ^ 10,
328 P.3d 1192, 1196-97. Therefore, we
consider Clients motion to be one
to modify or vacate the Decree, pursuant
to 12 0.5.2011, §§1031 and 1031.1
It is clear that this Court has erroneously
considered Clients Motion under § 651, with the
following statements:
Client's motion is at times disjointed and her
arguments hard to follow. Nevertheless, this Court
discerns her assignments of error to simply reargue
the same issues addressed in the underlying motion
for summary judgment. Client has not presented any
new evidence, new witnesses, or any new argument
that would suggest to this Court that entry of the
trial court's order was an abuse of discretion.

44a

Appendix J
This Court arrived at this erroneous decision
because they bought into the lower court's error.
Those being requirements under §651 not under
§§1031, 1031,1 or §655.
The language of the Motion itself brought to
light the gross inequity and lack of evidence to
support the trial court's award.. Further, there were
two (2) exhibits attached to Appellant's Motion and
references to Attorney Exhibit C (10th circuit
opinion) which supported her position and provided
specific examples of why the gross inequity existed.
That is what is in dispute-the motion attempts
to show the discrepancies that demonstrate why the
decisions are wrong, are/or will be available, some of
which are also attached along with deposition
testimony^ indexed to the specific allegations in the
Petition.
Clients additionally identified
misrepresentations proffered by Attorney, cited cases
that dispute Attorneys unsupported contentions,
included points in record in dispute properly
preserved the issue regarding the validity of the trial
court's refusal to withdraw the order such that this
issue is not beyond the review of this Court and was
specifically preserved.

45a

Appendix J
In addition, Appellant's Motion raised issues
regarding disadvantages Appellant experienced with
regard to obtaining and presenting evidence.
FED. R. CD/. P. 56(f) ("Should it appear
from the affidavits of a party opposing
the motion [for summary judgment] that
the party cannot for reasons stated
present by affidavit facts essential to
justify the party's opposition, the court
may refuse the application for judgment
or may order a continuance to permit
affidavits to be obtained or depositions to
be taken or discovery to be had or may
make such other order as is just.").
After the ruling denying Appellant's Motion
the Appeal was ripe for review. As an appeal under
1.36 no briefs are allowed. Appellant timely appealed
the underlying order including notice of the post trial
motion. Client, in the interest of judicial economy,
chose to consolidate the two appealable events.
Appellant submits that by failing to consider
Appellant's evidence throughout the proceedings
every issue presented and decided was decided
improperly.
RELIEF REQUESTED
Appellant petitions this Court to rehear the
appeal and withdraw its Opinion and answer the

46a

Appendix J
issues presented in the Petition in error that have
been ignored thus far.
Reverse and remand with instructions soas to
allow the discovery to be undertaken and the case to
be heard on the merits.
Respectfully submitted,
s/Judv Knight Dated June 3 2019
Judy Knight, Pro Se
1010 N Flood
Norman, Oklahoma 730
1-405-447-1010
CERTIFICATE OF MAILING
I hereby certify that on the 3rd day of June
2019 upon filing, a true and correct copy of the above
and foregoing document will be mailed, postage
prepaid, to:
Charles Alden III
309 N.W. 9th Street
Oklahoma City, Oklahoma 73102
Attorney for Appellants
s/Judith Knight

47a

APPENDIX K-MOTION TO IMMEDIATELY
FILE PETITION FOR REHEARING OUT OF
TIME-Filed Monday June 3, 2019
1043787446

ORIGINAL
IN THE COURT OF CIVIL APPEALS OF THE
STATE OF OKLAHOMA
Division II
Judith Knight and
Phoenix Central, Inc,
Plaintiff/Appellants
v.
)
Supreme Court No. 117492
Ward & Glass
Stanley Ward, and
John or Jane Does 1-10 Individuals or Corps
Defendant/Appellees
)
ON PETITION FOR REHEARING OF APPEAL
OF PLAINTIFFS/APPELLANTS/PETITIONERS
Appeal from the District Court of Cleveland County
Honorable Aaron Duck Case cj-2012-1540
General Negligence
MOTION TO IMMEDIATELY FILE
PETITION FOR REHEARING OUT OF TIME
Judy Knight,
1010 N. Flood
Norman, Oklahoma 73069
(405) 447-1010
Appearing Pro Se

48a

Appendix K
MOTION TO IMMEDIATELY FILE
PETITION FOR REHEARING OUT OF TIME
Appellant hereby implores this Court to allow
the immediate filing of the attached Petition for
Rehearing and Combined Brief out of time. In
support Appellant presents the following:
Background.
1.
The filed and mailing date of the Order
was May 9th Received on May 11th.
2.
A request for Extension of time was
filed on May 23rd
3.
At the time of filing that Request,
Appellant believed the due date was June 1st
which is a Saturday
4.
No answer to that request has been
received.
5.
Appellant has since found that the
Petition actually was due on May 30th.
Reasons.
a. The Appellees misrepresentations and this Court's
apparent adoption of them are such that demand
counter responses.
a.
Appellant believes the responses in
Petition for Rehearing will greatly assist the
Court in determining and locating those
inaccuracies.

49a

Appendix K
b.
The issues presented are important
especially since they concern her
constitutional right to access to the courts.
c.
Issues presented are important to the
consistent interpretation and application of
law.
d.
The additional time of two days does
not prejudice the Appellee's ability to defend
the lawsuit, defendants' course of conduct or
compromise their ability to defend against the
claims.
e.
Grant of the filing out of time would be
consistent with considerations of equity.
Therefore, for the reasons stated above,
Appellant implores this Court to permit the
immediate filing of the Petition for Rehearing.
Respectfully
s/Judith Knight'
Dated June 3 , 2019
Judy Knight, Pro Se
1010 N Flood
Norman, Oklahoma 730
1-405-447-1010
CERTIFICATE OF MAILING
I hereby certify that on the 3rd day of June
2019 upon filing, a true and correct copy of the above

50a

Appendix K
and foregoing document will be mailed, postage
prepaid, to:
Charles Alden III
309 N.W. 9th Street
Oklahoma City, Oklahoma 73102
Attorney for Appellants
AFFIDAVIT OF APPELLANT (Exhibit A)
I, Judy Knight, being of lawful age and first duly
sworn, hereby depose and states as follows:
Appellees contentions also include information that
is just plain wrong and accordingly has led this
Court to misunderstand.
There are simply too many items to counter or
support within this case to do so within the page
limits. The lower court never responded to my
requests for additional time or permission to exceed
word limits.
My attempts to provide a chart detailing where
proofs would be found apparently confused this
Court.
I had trouble trying to fit all my counters to their
contentions within the word limit also due to my lack
of skill that Attorneys generally possess in legalese
writing.

5 la

Appendix K
Elimination takes inherently longer than insertion.
I couldn't satisfy myself that I was writing a
"professional" document. I read all the case opinions
to be sure they are relevant.
In addition, I am working on a laptop with a 14"
screen. Trying to display multiple documents for
reference or copy and paste is not easily workable so
then I have to switch from one document to another
and back. That is a slow process.
Microsoft Word has a bad habit of changing formats
on its own.
I have been diligent in trying to prepare a cogent
brief. Amazing myself as to the number of hours to
reach the result.
Please take note the difference in Attorneys filing
and pro se: While attorneys:
1.
know what margins to use, limit on
pages, etc details as to format, procedures, etc. I
have to look it up.
2.
have resources to look up laws and
cases, secretaries to do the typing and other duties.
3.
Know or believe they know the statutes
and can quickly answer whereas I have to research
with limited resources

52a

Appendix J
4.
Are getting paid so this is what they do
with their days, whereas for pro se this process is
like a second and third full time job.
I am fully aware of both the requirements that pro se
meet the obligations as well as the requirement that
Courts obligation for leniency in consideration.
No-one can be more relieved my OCD like actions are
over for a little while and I can return to remedy my
normal life actions ignored during this process.
Please consider this unorthodox response.. I have too
much invested to let this important case go.
Time to prepare this document 31 minutes.
Further affiant sayeth not.
s/Judv Knight
Subscribed and sworn to before me this 3rd day of
June, 2019
s/Jamie Shults
Notary Public
My Commission expires on
4/11/22

53a

APPENDIX L- APPLICATION TO EXCEED
PAGE LIMIT Filed May 23rd, 2019 IN THE COURT OF CIVIL APPEALS OF
THE STATE OF OKLAHOMA
Division II
Judith Knight and ) .
Phoenix Central, Inc )
Plaintiff/Appellant
v.
)
Supreme Court No. 117492
)
)
)

Ward & Glass
Stanley Ward, and
John or Jane Does 1-10)
Individuals or Corps Defendant/Appellees
APPLICATION TO EXCEED PAGE LIMIT
Judy Knight,
1010 N. Flood
Norman, Oklahoma 73069
(405) 447-1010 .
Minil010@AOLCOM
Appearing Pro Se

54a

Appendix L
APPLICATION TO EXCEED PAGE LIMIT
Applicant hereby requests that the Court
permit the page count to be expanded for the above
named:
That efforts to comply with the page limit is
likely to deprive Petitioner of an opportunity to be
heard on the merits of this proceeding thus violating
Petitioners right to due process by taking from the
court's purview arguments which might alter the
outcome of the proceeding
While recognizing that the clarity and cogency
of the arguments presented does not necessarily
depend on a lengthy discussion, Petitioner remains
convinced that an overzealous reduction of pages, as
insisted upon by her prior counsels, while reducing
the court's burden, has not and does not lend
favorably to proper interpretation and a just result.
That the Motion, as now drafted is over limit
and does not yet include all issues and other
required headings and references as Petitioner
understands them, when included, will add more
pages.
That Petitioner has found in the past that her
attempts to reduce initial drafts into the word or

55a

Appendix L
page limits imposed take as much or more time as
preparing the original drafts. Therefore an
expansion of the page limits will greatly assist in her
ability to comply with time limits.
That these items show exceptional
circumstances that would warrant an expansion of
the page limit.
Therefore this request is for an expansion not
to exceed 30 pages, in addition to the statutory 15
pages. Appellant understands contents and table of
authorities, not included in the page count, will be
required if approved.
That if granted, every effort will still be made
to reduce the count.
Respectfully submitted,
s/ Judy Knight
CERTIFICATE OF MAILING
I hereby certify that on the
11 day of
February 2020 upon filing, a true and correct copy of
the above and foregoing document will be mailed,
postage prepaid, to:
Charles Alden III
309 N.W. 9th Street
Oklahoma City, Oklahoma 73102
Attorney for Appell[ees]

56a

APPENDIX M- APPLICATION FOR
ENLARGEMENT OF TIME TO FILE A
PETITION FOR REHEARING Filed May 23rd, 2019
IN THE COURT OF CIVIL APPEALS OF
THE STATE OF OKLAHOMA
Division
II
•'
’ / • ;rv\
/; •;
. NMi. : ....
Judith Knight and )
Phoenix Central, Inc )
Plaintiff?Appellants
v.
Supreme Court No. 117492
)
)
)

Ward & Glass
Stanley Ward, and
)
John or Jane Doesl-10)
Individuals or Corps

Defendant/Appellees

APPLICATION FOR ENLARGEMENT OF TIME
TO FILE A PETITION FOR REHEARING
In support of this application for enlargement
of time, not to exceed 20 days, beyond the proclaimed
due date of June 1st’, Appellant presents the
following:

57a

Appendix M
No previous requests have been made for an
enlargement of time.
It appears to Appellant that this Court did not
have a clear understanding of the issues on which it
ruled.
That the Petition for Rehearing requires
detailed information to overcome the
misinterpretations and errors in the proceedings.

(20 days after May 9 plus 3 days mailbox rule)
That the Petition for Rehearing requires
presentment of facts for multiple important issues.
That appearing pro se, Applicant is not
trained in the art of legal writing, and therefore is
not proficient in presenting concise statements
without losing the essence of the argument.
This shortcoming therefore requires
significant time to reduce wording to fit within the
page limits established in the rules.
That applicant knows of no harm that will be
caused by the granting of such extension.
That it would be just and proper to order that
the time for filing be extended to June 21, 2019 and

!

58a

Appendix M
applicant respectfully prays for an order to that
effect.
Respectfully,
s/ Judv Knight
Dated May 23, 2019
Judy Knight, Pro Se
1010 North Flood
Norman, Oklahoma 73069
405-447-1010
CERTIFICATE OF MAILING
I hereby certify that on the -23rd day of May
2019 upon filing, a true and correct copy of the above
and foregoing document will be mailed, postage
prepaid, to:
Charles Alden III
309 N.W. 9th Street
Oklahoma City, Oklahoma 73102
Attorney for Appellants

"i

<:

